UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL




     STATEMENT OF ROGER C. VIADERO

           INSPECTOR GENERAL



                 Before the

          U.S. SENATE COMMITTEE
                    ON
   AGRICULTURE, NUTRITION, AND FORESTRY




               March 22, 2001
                                      STATEMENT OF
                                    ROGER C. VIADERO
                                   INSPECTOR GENERAL
                            U.S. DEPARTMENT OF AGRICULTURE
                                       BEFORE THE
                        U.S. SENATE COMMITTEE ON AGRICULTURE,
                                 NUTRITION, AND FORESTRY
                                       March 22, 2001




Good morning Mr. Chairman and members of the Committee. As requested I am here today to
update you on the activities of the Office of Inspector General in regard to the allegations of
widespread corruption in the meat inspection program in the New York City metropolitan area.

Before I begin, I would like to introduce the members of my staff who are here with me today:
Gregory Seybold, Assistant Inspector General for Investigations; and James Ebbit, Assistant
Inspector General for Audit.

As you are aware, on August 22, 2000, you requested that our office conduct an investigation of
possible widespread corruption in the meat inspection program in the New York City area, based
on broad allegations raised by several sources to the Committee. We added those allegations to
one of our many ongoing investigations into alleged criminal activity in the meat inspection
program in the New York City area. Also, about the time of the August request, our office
received other similar allegations of inadequacies in the Food Safety and Inspection Service,
federal meat inspection program in New York City and New Jersey. Members of my staff or I
personally met with each of the complainants who were willing to talk with us, in order to obtain
specific information regarding the allegations they were raising. After careful analysis of their
statements to us, we added those allegations of criminality to our ongoing investigative inquiry
into the meat inspection program. Since receipt of the initial allegations, we have completed
numerous interviews, record reviews and physical surveillances of FSIS inspectors. Our
investigation of the criminal aspects is continuing and, therefore, I cannot provide details to the
Committee without jeopardizing our efforts to date. As soon as our inquiry is complete, we can
provide the Committee with a report of our investigative activities.

As the Law Enforcement arm of the USDA our principle focus, as always, is on those allegations
that are criminal in nature. However, as the second set of “eyes and ears” for the Department
and Congress, we did not disregard those allegations brought to us, which were of a non-criminal
nature and required a vigorous regulatory program response by the Food Safety and Inspection
Service (FSIS) of USDA. Therefore, we coordinated with senior FSIS management officials to
ensure that a thorough and independent intensive administrative review of the inspection
program in the New York City metropolitan area is conducted promptly. In fact, this intensive
review began on Tuesday, March 20, 2001, and is on going as I am testifying before you today.
This review is being conducted by the FSIS Technical Services Review Staff from Omaha,
Nebraska; the review includes physical visits to meat plants, record reviews and interviews with
meat plant personnel. Our office has numerous special agents from New York and from other
parts of the country in place assisting the FSIS review teams. My agents are prepared to respond
immediately to any criminal activity uncovered during the review process and to insure the FSIS
review teams can complete their mission safely. Any details regarding this regulatory review
can be better addressed by the FSIS.

In addition to our investigation of the issues brought to the attention of this committee, we
currently have many other investigations regarding the meat inspection program on-going in the
New York metropolitan area. These cases encompass FSIS employee misconduct, assaults
against FSIS inspection staff, and criminal allegations against meat processors. We received the
allegations for these cases from FSIS, our own hotline and other sources.

In June 2000, OIG completed a series of audits to determine if FSIS had successfully
implemented the science-based Hazard Analysis and Critical Control Point (HACCP) system for
inspecting meat and poultry. This series of audits included the implementation of HACCP,
laboratory analyses, foreign imports, and FSIS’ compliance program that carried over from the
previous inspection system. We made a series of recommendations to FSIS in each of these
areas to strengthen FSIS’ oversight of the meat supply.

To meet its responsibility of ensuring that meat and poultry entering consumer channels is
wholesome, FSIS performs compliance reviews of non-federally inspected firms, such as
warehouses, processors, distributors, transporters, and retailers. FSIS may initiate a compliance
review to respond to a consumer complaint, to carry out its random reviews of firms, or to follow
up its reviews of previous violators. Our review looked at 5 of 17 FSIS districts then in
operation; generally, we found compliance needs to: assure that all firms subject to compliance
reviews are identified; target its resources to metropolitan and geographic areas or at firms
regarded as high-risk; and act more aggressively against repeat violators, including obtaining
authority to impose civil penalties where violations do not warrant criminal prosecution.

The FSIS Albany, New York, district office was one of five district offices included in OIG’s
review of FSIS’ compliance program. The results of OIG’s work in the Albany district was
considered in formulating conclusions about FSIS’ compliance operations and whether
weaknesses and problems existed that FSIS needed to address across the board.

FSIS had not implemented operating procedures to establish documentation requirements for
compliance random reviews. For example, at the Albany district we reviewed 1,022 random
reviews conducted by two compliance officers during September 1998 through February 1999.
We were unable to identify the review steps performed by the two compliance officers, including
meat and/or poultry inventory observations and record reviews. The compliance officers did not
document whether assessments were made of controls on product storage and handling, pest
management, or housekeeping. Without such documentation, there was no record that key
components of the review were performed.




                                                   2
We also noted inconsistencies in how reviews were conducted among the districts visited and
what were reported as random reviews. For example, a random review in the Albany district at a
sandwich retail shop was counted as a review even though the owner did not allow the officer to
perform the review. Until we brought it to the district’s attention, one compliance officer had
counted a visit to a police station as a random review. In this case the compliance officer was
following up on a call that the police department was looking for someone with a badge who was
going into restaurants.

OIG found that FSIS should target its resources to major metropolitan areas and to those firms
judged to be high-risk. For example, three of the five compliance officers located in Albany
made 1,167 random reviews September 1998, through February 1999 and found 20 firms with
violations (2 percent). In contrast, two of six compliance officers in Jamaica, New York, FSIS
Office, which has responsibility for the New York City metropolitan area, performed 89 random
reviews during the same period and found violations at 22 firms (25 percent). New York City
has a high concentration of custom exempt slaughter facilities, and the evidence suggests that
resources need to be shifted to the New York City metropolitan area where more problems are
being identified.

FSIS did not have an effective system to monitor consumer complaints so that the number, status
and disposition could be tracked. This was also the case in the Albany district. FSIS’ Office of
Public Health and Science referred 11 complaints to the Albany district, but the office only had
record of 2. Albany had recorded 143 consumer complaints, but the documentation indicated
these were only the number where actual follow up was performed. OIG could not determine
how many initial complaints were made or how many where no follow up was undertaken.

We reported that FSIS’ enforcement actions were not sufficient to deter repeat violators where
the violations did not lend themselves to criminal prosecution. For example, a firm in Atlantic
City, part of the Albany district, was cited by FSIS for five separate violations between October
1997, and September 1999, but FSIS could only issue letters of warning to the company.
Another firm had five violations, and 6 other firms had four violations each within a 24-month
period. But again, letters of warning were the only option since criminal prosecution did not
appear warranted. We believe these examples support the Department’s efforts to seek
legislative authority to assess civil monetary penalties against firms that commit repeated
violations.

I would point out that what we found and observed in the Albany district was not the only
support for our conclusions and recommendations. Similar conditions were found at the other
four districts we visited.




                                                   3
In conclusion, I will continue to endeavor to respond as my office’s first priority to insure the
health and safety of the citizens of this country against unscrupulous criminal meat processing
businesses and misfeasant employees.

This concludes my statement Mr. Chairman. I appreciate the opportunity to appear before you
today and would be pleased to respond to any questions you may have at this time.




                                                      4
